Appendix A
Order of New York State Court of Appeals

Nationstar Mtge., LLC v Martin Dekom
Motion No: 2018-1028
Slip Opinion No: 2020 NY Slip Op 65749
Decided on April 30,2020
Court of Appeals Motion Decision
Published by New York State Law Reporting Bureau pursuant to Judiciary Law §
431.
This motion is uncorrected and subject to revision before publication in the Official
Reports.

Nationstar Mortgage, LLC,
Respondent,
v
Martin Dekom,
Appellant,
et aL,
Defendants.
Motion, insofar as it seeks leave to appeal from the portion of the Appellate Division order that affirmed the
December 2014 Supreme Court judgment, denied; motion for leave to appeal otherwise dismissed upon the
ground that the remaining portions of the Appellate Division order do not finally determine the action within
the meaning of the Constitution.
Motion for poor person relief dismissed as academic.

Appendix B
Orders of the Appellate Division, Second Department

•^r

V

(Enurt of tfjE 0tatc of 2feur fork
Appellate Slutstoo: ^eeoniJ SuMttal department

;

D55349
T/htr
Argued - January 16,2018

AD3d
ALAN D. SCHEINKMAN, P.J.
MARK C. DILLON
SYLVIA O. HINDS-RADIX
LINDA CHRISTOPHER, JJ.

DECISION & ORDER

2015-02955
2015-09970
2015-09971
Nationstar Mortgage, LLC, respondent, v Martin
Dekom, appellant, et a!., defendants.
(Index No. 8566/13)

Martin Dekom, Manhasset, NY, appellant pro se.
Sandelands Eyet, LLP, New York, NY (William C. Sandelands and Kieran M.
Dowling of counsel), for respondent.
In an action to foreclose a mortgage, the defendant Martin Dekom appeals from a
judgment of foreclosure and sale of the Supreme Court, Nassau County (Thomas A. Adams, J.),
dated December 2, 2014, and two orders of the same court, entered April 16,2015, and May 14,
2015, respectively. The judgment of foreclosure and sale, upon the default of the defendant Martin
Dekom in answering the complaint, inter alia, directed the sale of the subject property. The order
entered April 16,2015, denied the motion of the defendant Martin Dekom, in effect, to vacate his
default in answering. The order entered May 14,2015, denied the motion of the defendant Martin
Dekom to vacate the default judgment of foreclosure and sale and/or stay its enforcement.
ORDERED that the judgment and the orders are affirmed, with one bill of costs.
The plaintiffs predecessor-in-interest commenced this action to foreclose a mortgage
after the defendant Martin Dekom (hereinafter the defendant) defaulted in making his payments on
the underlying note. The defendant defaulted in answering the complaint. The action proceeded to
an inquest, where the defendant appeared and sought dismissal of the complaint insofar as asserted
against him for, among other things, lack of personal jurisdiction. The Supreme Court found that
Page 1.

May 16,2018
NATIONSTAR MORTGAGE, LLC v DEKOM

/

/

the plaintiff established personal jurisdiction over the defendant, in that the defendant was properly
served, and directed entry ofjudgment. A judgment of foreclosure and sale dated December 2,2014,
was then entered.
The defendant moved, in effect, to vacate his default in answering. In an order
entered April 16,2015, the Supreme Court denied that motion. The defendant then moved to vacate
the default judgment and/or stay its enforcement. That motion was denied by order entered May 14,
2015. The defendant appeals from the judgment and the orders entered April 16,2015, and May 14,
2015, respectively.
We agree with the Supreme Court’s rejection of the defendant’s claim of lack of
personal jurisdiction. A process server’s affidavit of service constitutes prima facie evidence of
proper service (see Summitbridge Credit Invs., LLC v Wallace, 128 AD3d 676; JPMorgan Chase
Bank, N.A. v Todd, 125 AD3d 933). “Although a defendant’s sworn denial of receipt of service
generally rebuts the presumption of proper service established by a process server’s affidavit and
necessitates an evidentiary hearing, no hearing is required where the defendant fails to swear to
specific facts to rebut the statements in the process server’s affidavits” (Deutsche Bank Natl. Trust
Co. v Quinones, 114 AD3d 719,719 [internal quotation marks omitted]; see BankofN. Y. vSamuels,
107 AD3d 653). Affix and mail service pursuant to CPLR 308(4) may be used only where service
under CPLR 308(1) by personal delivery or CPLR 308(2) by delivery to a person of suitable age and
discretion cannot be made with due diligence (see CPLR 308(4]; Deutsche Bank Natl. Trust Co. v
Mute, 110 AD3d 759, 759-760; Estate of Waterman v Jones, 46 AD3d 63,65).
The term “due diligence,” which is not defined by statute, has been interpreted and
applied on a case-by-case basis (see Estate of Waterman v Jones, 46 AD3d at 66). As a general
matter, the “due diligence” requirement may be met with “a few visits on different occasions and at
different times to the defendant’s residence or place of business when the defendant could reasonably
be expected to be found at such location at those times” (id.; see Deutsche Bank Natl. Trust Co. v
White, 110 AD3d at 760). In this case, the plaintiff submitted affidavits from the process server
which demonstrated that four visits were made to the defendant’s residence at different times when
the defendant could reasonably have been expected to be found at home. The process server also
described the means she used to verify the defendant’s residential address, and described her
unsuccessful attempt to ascertain the defendant’s place of employment. We agree with the Supreme
Court that the affidavits constituted prima facie evidence that the due diligence requirement was
satisfied (see JP Morgan Chase Bank, N.A. v Baldi, 128 AD3d 777,777-778). The affidavits also
constituted prima facie evidence that the process server properly affixed a copy of the summons and
complaint to the door of the defendant’s residence, and mailed a copy to the residence by first class
mail. Contrary to the defendant’s contention, he failed to rebut the presumption of proper service
arising from the process server’s affidavits. Further, the summons contained statutorily mandated
language warning the defendant that the failure to serve an answer to the complaint may result in a
default judgment and advising him to speak to an attorney (see generally RPAPL 1320).
We agree with the Supreme Court’s denial of the defendant’s motion, in effect, to
vacate his default in answering, and his motion to vacate the default judgment and/or stay its
enforcement, since he failed to proffer a reasonable excuse for his default (.see Wells Fargo Bank,
N.A. v Mazzara, 124 AD3d 875. 875, citing Eugene Di Lorenzo, Inc. v A.C. Dutton Lbr. Co., 67
Page 2.
May 16,2018
NATIONSTAR MORTGAGE, LLC v DEKOM

NY2d 138, 141). In view of the lack of a reasonable excuse, it was unnecessary for the Supreme
Court to consider whether the defendant demonstrated the existence of a potentially meritorious
defense (see Wells Fargo Bank, N.A. v Mazzara, 124 AD3d at 875).
SCHEINKMAN, P.J., DILLON, HINDS-RADIX and CHRISTOPHER, JJ., concur.
ENTER:

•/U>
Aprilanne Agostino
Clerk of the Court

Page 3.

May 16,2018
NATIONSTAR MORTGAGE, LLC v DEKOM

Supreme Court of tije &tate of Nero fork
Appellate Stuioton: £>econii Subictal Separtment
M253898
E/sl
ALAN D. SCHEINKMAN, PJ.
MARK C, DILLON
SYLVIA O. HINDS-RADDC
LINDA CHRISTOPHER, JJ.
DECISION & ORDER ON MOTION

2015-02955,2015-09970,2015-09971
Nationstar Mortgage, LLC, respondent,
v Martin Dekom, appellant, et al., defendants.
(Index No. 8566/13)

Motion by the appellant for leave to reargue appeals from a judgment of the Supreme
Court, Nassau County, dated December 2,2014, and two orders of the same court entered April 16,
2015, and May 14, 2015, respectively, which were determined by decision and order of this Court
dated May 16, 2018, or, in the alternative, for leave to appeal to the Court of Appeals from the
decision and order of this Court.
Upon the papers filed in support of the motion and the papers filed in opposition
thereto, it is
ORDERED that the motion is denied, with $100 costs.
SCHEINKMAN, P.J., DILLON, HINDS-RADIX and CHRISTOPHER, JJ., concur.
ENTER:

/U>
Aprilanne Agostino
Clerk of the Court

August 10,2018
NATIONSTAR MORTGAGE, LLC v DEKOM

Appendix C
Orders of the Nassau County Supreme Court

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NASSAU
------ X

NOTICE OF ENTRY

NATIONSTAR MORTGAGE LLC,

INDEX NO.: 13-8566

Plaintiff,

MORTGAGED PREMISES:
34 HIGH STREET
MANHASSET, NY 11030

vs.

MARTIN DEKOM, COUNTY OF NASSAU C/O
OFFICE OF COMMUNITY DEVELOPMENT,
BANK OF AMERICA, N.A.,

SBL#:
SECTION 2,
BLOCK 347,
LOT 19

Defendants).
—X

PLEASE TAKE NOTICE, that the within is a true copy of the Judgment of Foreclosure and Sale
entered in the Office of the Clerk of the County of Nassau on December 11,2014 .
DATED:

r
WestbUTy, New York

COPY
TO:

MARTIN DEKOM
34 HIGH STREET
MANHASSET, NY 11030

By:

_£[

BiTimTrnoldhrrc TT7r[

GROSS POLOWY, LLC
Attorneys for Plaintiff
900 Merchants Concourse, Suite 412
Westbury, NY 11590
Telephone: 716-204-1700
Facsimile: 716-204-1702
(Facsimile not for service)

HASSAD COURT? CLERK'S OFFICE
ENDORSEMENT COVER PAGE
Record and Return To:

Recorded Date: 12-30-2014
Recorded Tine: 2:09:03 p
Liber Book: J
Pages From:
To:
Control
Number:

3837
233
245
3479

DOCTypel J60°0TOG«KKP FORECKJSDEE * SALE

Plat: NATIONSTAR MORTGAGE LLC
Dfnd: DEKOM, MARTIN
Dfnd: NASSAU CODNTY

Taxes Total
Recording Totals
Total Payment

.00
.00
.00

BMP001
THIS PAGE IS NOW PART OF THE INSTRUMENT AND SHOULD NOT BS S2M0VHD
KAXJRKBN O' CONNELL
COUNT? CLERK

EH11123003ti?'i

At a Foreclosure Part ofthe Supreme Court
of the State ofNew York, County ofNassas,
held at the Courthouse thereof 100 Supreme
Court Drive. Mincola, New York, on the___
2014

dayQfPEC' rant
THOMAS A. ADAMS

PRESENT: HON..____________
JUSTICE OF THE SUPREME COURT
FORECLOSURE PART

-X

BANK OF AMERICA, N.A..
Plainua,
vs

MARTIN DEKOM. COUNTY OF NASSAU C/O
OFFICE OF COMMUNITY DEVELOPMENT. BANK
OF AMERICA. NA..
-JOHN DOE #1” through -JOHN DOE 612,* the last
twelve tmrnat being fictitious and unknown to plaintiff
the persons or parties intended being the tenants,
occupants, persons or corporations, ifany. having oc
/.faimmg m interest in or lien upon the premises,
described in the complaint.

■TiroGMENT OF
foreclosure
akth sate. AFTER
mOPESTANP
APPOINTMENT
INDEX NO- 13-8566
MORTGAGED PREMISES:
34 HIGH STREET
MANHASSET.NY 11030
SSL#:
SECTION 2.
BLOCK 347.
LOT 19

Defendants).
delis'. Ja«/. ait inquest was held

Whereas, pursuant to an order of tins court dated
/rk
/^g/on October 30.2014: and
before
Whereas, a decision dated

Btf. jo Jo/V was issued finding plaintiff is entitled to a

Judgment of Foreclosure and Sale after Inquest and Appointment of Referee m the amount of
5432^39.06 as of October 7.2014. at the contractual interest rate of2.750 perccut: and

1

i

Whereas.» decision dated

was issued finding the property can be sold as one

(1) parcel.
The Court further finds upon said testimony and exhibits, that plaintiff has established all the
rcqtnrcd elements for a Judgment of Foredosare and Sale after Inquest and Appointment of Referee.
It is ben*y ORDERED. ADJUDGED AND DECREED, that the plaintiff has a judgment against
defendant MARTIN DEKOM in the amount of S432339.06 as of October 7.2014. with contractual
interest at the rate of 2.750 percent which results in a per (Eem rate of £27.01 until entry of this order
»

end the statutory rate thereafter; and
The Court further finds open said testimony and exhibits, that die amount due Plaintiff on the
note is $358,507.19, together with interest as specified herein, and thattke mortgaged premises cannot
be sold in parcels;
It is hereby ORDERED. ADJUDGED AND DECREED, that the application is hereby granted
without opposition: and it is further
ORDERED, ADJUDGED AND DECREED, that property shall be sold pursuant to RPAPL
§1351. a deed be issued in accordance with RPAPL §1353 (1) and that the sale prcceeds.be distributed
in accordance with RPAPL §1354: and it is further
ORDERED. ADJUDGED AND DECREED, that the Plaintiff in this action now be known as
NAT10NSTAR MORTGAGE LLC. pursuant to die assignment of mortgage dated June 17,2014 and
that the caption of this action be amended to reflect the same; and it is further

2

i

!

!

ORDERED. ADJUDGED AND DECREED, that “John Doc“ be dropped as a party defendant in
this action as no occupants reside as the premises, and that tbe caption of this action be amended to
reflect the deletion of “John Doe” as a party defendant; and it ts Anther
:

ORDERED, that the capdon. as amended, shall read as follows:

|

SUPREME COURT OF THE STATE OFNEWYORK
COUNTY OF NASSAU
INDEX NO.: 13-8566

NATIONSTAR MORTGAGE LLC,

MORTGAGED PREMISES:
34 HIGH STREET
MANHASSET. NY 11030

Plaintiff.
vs.
MARTIN DEKOM, COUNTY OF1^SAUC/0
OFFICE OF COMMUNITY DEVELOPMENT. BANK
OK AMERICA. NA-

SSI.fr
SECTION 2.
BLOCK 347.
LOT 19

Defendant(s).
; and it is further
, ADJUDGED AND DECREED, that the mortgaged premires be sold in one parcel
ORDERED
authorized under {Bill) of the RPAPL at the Caksds
at public auction to the highest bidder. as
^rrr1
,rCPt
of the Suorrmr Court, 100 Supreme Court Dpve. Mineola. NY U3BL
___ n.-tn

a.m_ w -YMhJL QitCWydC- >.

^ prCW rftelO-AH.

Put*

**

C-d pM** »

MANHASSETPWKS
I3JEASTC-ST
MtNEOtA

: and it is further
_

....

ORDERED. ADJUDGED AND DECREED, that the premises be sold m las is condrtton
defined as the condition the premises are

in as of the date of sale and continuing through the date of

dosing, and that said sale shall be abject to*
3

^

s

(a)

Rights of the public and others in and to any part of the mortgaged premises that lies
within the boundsof any street, alley, or highway, restrictions and casements of record:

(b)

Any state effects that an accurate, currently dated survey might disclose;

(«)

Rights of tenants, occupants or squatters, if any It shall be the responsibility of the
Purchaser to evict or remove any parties in possession of premises being foreclosed.
There shall be no pro-rata adjustment in fevor of the purchaser fcr any rents that are paid
for a period after the date of the foreclosure sale.

<d)

The right of redemption of tire United Stales ofAmerica, if any, and it Is further

ORDERED, ADJUDGED AND DECREED, in accordance with §1353 (1) of the RPAPL that
the Plaintiff or

any other parties to this action may become the purchaser or purchase* at such sale; and

it is further
ORDERED, ADJUDGED AND DECREED, that the Referee at fire time of sale may accept a
written bid from the Plaintiff or the Plaintiff's attorneys, just

05

though tire Plaintiff were physically

prct>ent to submit said bid: and it is farther
ORDERED. ADJUDGED AND DECREED, that the terms of sale, to Ac. extent they do not
contradict this judgment or violate any law. shall he binding in all respects on the purchaser; and it is
further
ORDERED. ADJUDGED AND DECREED, that after sale the Referee shall deposit, in his/her
TDBMtt
___ . a bank or trust company
as Referee, the initial bid deposit in — ttSmAKWXAVE
CAwexcmr.Hrm*
^ authorized to transact business in New York. This account shall be used solely to complete the closing

^

of the sale and payment ofthe items referenced heron as needed; and it is further
4

ORDERED, ADJUDGED AND DECREED, that in accordance with §1351(1) of fot RPAPL
upon payment ofthe purchase price the Referee execute a deed to the purchaser, and it k further
ORDERED, ADJUDGED AND DECREED, that in accordance with § 1354 of the RPAPL. upon
payment of the purchase price the Referee Is (Erected to make the Mowing payments or allowance from
the sale proceeds to the plaintiff.
FIRST: Payment pursuant to CPLR §8003. by the Referee of seven hundred and fifty dollars
($750 001 which represents the statutory fees for his/her conducting the sale ofthe subject property.
SECOND: Payment by foe Referee for the costs of advertising or posting as listed on bills
submitted to and certified by foe Referee to be coned.
THIRD: Payment, in accordance with §1354(1 > of the RPAPL. by the Referee to the Plaintiff or
its attorney for the following: amount due Plaintiff, costs and disbursements: attorney fees and an
additional allowance, if awarded.
Amount Due Plaintiff. $4^939.06 together with interest at the note rate until foe date of entry
of thisjudgment

and thereafter at the statutory rate until the date oftransfer of foe Referee's Deed.

Costs and Disbursements,
£.CV‘.

s[}$-0Q adjudged to the Plaintiff for costs and disbursements in
C o

ihc action, which will be taxed by the County Clerk and inserted herein, with interest at foe judgment
rate thereon from the dale of entry hereof.
OaJO .rO

Attorneys Fees.

is hereby awarded to foe Plaintiff as reasonable legal fees heroin.

Wh legal interest from the date of entry ofjudgment hereof.
Additional Allowance. S.

— a —~

js hereby awarded to the Plaintiff in addition to

costs with interest at foe judgment rate from foe date of entry hereofas per CPLR §8303 (a)(1).
5

FOURTH: Payment, in accordance with § 1354(2} of the RPAPL. of all taxes, assessments and
water rates that are liens upon the property and redeem the property flam any sales for unpaid taxes,
assessments, or water rates that have not apparently become absolute with such interest or penalties
which may lawfully have accrued thereon to the day ofpayment
ORDERED. ADJUDGED AND DECREED, that plaintiff; may, after entry of this judgment,
make all necessary advances for inspections and maintenance of the property, taxes, insurance premiums
or other advances necessary to preserve the property, whether or not said advances woe made prior to or
after entry ofjudgment, so long as said advances are not included in the amount due plaintiff awarded
herein, and that the Referee be provided with receipts for said expenditures, which amounts together
with interest thereon at the note rale from the date of the expense until the date of entry or this
Judgment, then with interest at the judgment rate until the date of transfer of the Referee’s Deed shall be
included m the amount doe Plaintiff: and it is further
ORDERED. ADJUDGED AND DECREED, that if the Plaintiff is foe purchaser at sale, foe
Referee dial! not require the Plaintiff to pay either a deposit or the bid amount, but shall execute and
deliver to foe Plaintiff a Deed of foe premises sold upon the payment of foe statutory fees of S750.00 for
conducting foe sale of the subject property. PlmntiffshaB provide the Referee withpreof of foe amounts
paid for taxes, assessments and water rates upon recording of the deed. The balance of the bid amount
shall be applied to the amounts duo to foe Plaintiff as specified herein and that if after applying foe
balance of the bid amount there is a surplus. Plaintiff shall pay it to foe Referee, who shall deposit foe
tunds. In accordance with RPAPL §1354(4). foe Referee shall take receipts for foe money so paid out
by him/her and file foe same with his/her report of sale, and font he/she deposit foe surplus moneys, if
any. with the Treasurer of Nassau County within live (5) days after same shall be received and
ascertainable. to the credit of this action, to be withdrawn only upon the order of foe court, signed by a
6

justice of this Court; that the Referee make a report of such sale under oath showing the disposition or
the proceeds of the sale and accompanied by the vouchers of the persons to whom the payments were
made with Clerk or the County of Nassau within thirty (30) days of completing the sale, and executing
the proper conveyance to the purchaser: and it is further
ORDERED. ADJUDGED AND DECREED, that transfer tax is not a iien upon fee property or
an expense of sale, but rather an expense ofrecordlng the deed. All expenses of recording fee Referee's
Deed shall be paid by fee purchaser and not the Referee team sale proceeds, Purchaser shall be
responsible for interest accruing on real property taxes after the date of fee foreclosure sale; and it »s
further
ORDERED. ADJUDGED AND DECREED, the Referee make a report of sale in accordance
§1355 (1) of the RPAPL. showing fee disposition of fee sale proceeds accompanied by fee receipts
with
for payments made and Hie it with fee Clerk of fee Court within thirty (30) days of completing the sale:
and it is further
ORDERED. ADJUDGED AND DECREED, that fee proceeds of such sale, regardless of
amount,

shall be rf.~r.~i to he in fell satisfaction of the mortgage debt as authorized by § 1371 (3 (4) of

tire RPAPL: and it is further
ORDERED. ADJUDGED AND DECREED, feat fee purchaser or purchasers at such sale be let
into possession on producing the Referee's Deed: and it is further
ORDERED, ADJUDGED AND DECREED, that each and all of the Defendants in this action
and all persons claiming under them, or any or cither of them, after the filing of such Notice of
Pendency of this action, be and they hereby are. barred and foreclosed of all right, claim, fico. title.

7

*

interest and equity of redemption in the said mortgaged premises and each and every part thereof, and it
is further
ORDERED, ADJUDGED AND DECREED, that the liens of the Plaintiff other than die
mortgage or mnrtjn.pxt that are the subject matter of this action are also foreclosed herein as though the
Plaintiff was named as a party Defendant, specifically reserving to the Plaintiff its right to share in any

I

surplus monies as a result ofsuch position as a lien creditor, and it is further
ORDERED. ADJUDGED AND DECREED, that by accepting this appointment, the Referee
certifies dial he/she is in compliance with Part 36 of the Rules ofthe Chief Judge (22NYCRR, Part 36).
including, but not limited to. §3fi.2( c ) (“Disqualification fiom appointment”) and §36.2{d;
(“limitations on appointments bared upon compensation”) and if the Referee is disqualified from
receiving an appointment pursuant to fee ptovirions of that Rule, the Referee shall notify the Appointing
Judge

forthwith; and no fee shall be paid to such appointee until said appointee has filed all necessary

OCA forms wilh the Court and h is further
ORDERED. ADJUDGED AND DECREED, that pursuant re CPLR 6003(b). absent application
to the court, further court order, and compliance with Part 36 of the Rules of the Chief Judge, the
Referee shall not demand, accept or receive more that the statutory amount of seven hundred and fifty
dollats (S750.0Q) otherwise payable to the Referee for the foreclosure sale stage, regardless of
adjournment, delay or stay of the sale; and it is furflter
ORDERED. ADJUDGED AND DECREED, that fee Referee is prohibited ftom accepting or
retaining any fends for him/herself or paying funds to hba/heisdf without compliance with Part 36 of
the Rules of fee Chief Administrative Judge; Bid it is further

8

;

ORDERED. ADJUDGED AND DECREED, that the Notice of Sale must be submitted to the
Motion

Support Office, Room 186 at the Supreme Court. Nassau County, located at 103 Supreme Court

Drive. Mnwola, New

York, at least ten (10) days prior to the date of the foreclosure auction; and U is

further
ORDERED. ADJUDGED AND DECREED, that no sale of the premises will be scheduled, and
the Court will not place the above captioned matter on the calendar for anction. nor will the Court accept
"Affidavit in Support of Residential Mortgage Foreclosure" is
Notice of Sale, unless and until an
Plaintiff staling that all Federal, State and Local Statutes. Laws. Rides and Regulations.
submitted by the
Mortgage Foreclosure, Foreclosure Prevention and
Mandates and Executive Orders with (aspect to
as well as all conditions precedent to the commencement of an action to foreclose a
Home Retention.
residential mortgage, have been complied with in the instant action; and it is further
ORDERED. ADJUDGED AND DECREED, that the Referee appointed heron and any party
entitled to service be served with a signed copy of the Judgment of Foreclosure and Sale with Notice of
Entry.

THPMftg A. ADAMS_______ _
HON.
JUSTICE OF THE SUPREME COURT

Oft
Dated

entered

2 *014

Mmeola. New York

dec u28,4

9

Additional material
from this filing is
available in the
Clerk's Office.

